N o. 2 1 -1 8 4
I n T he

S u pre me C o urt of t he U nite d St ate s
K

E VI N

B

Y R D

,
P etiti o n e r ,

v.
R

A Y

L

A M B

,
R e s p o n d e nt .

O n P e ti ti o n f o r a W ri t o f C e r ti o r a ri
t o t h e U ni t e d S t a t e s C o u r t o f A p p e al s
fo r t h e Fif t h Ci r c ui t
A C K N O W L E D G M E N T O F S E R VI C E
I, S h el d o n Ei s e n b e r g, h e r e b y a c k n o wl e d g e t h at
1 u n b o u n d c o p y a n d 4 0 c o pi e s of t h e M O T I O N F O R
L E A V E A N D B RI E F O F P E T E R S C H U C K A S
A MI C U S
C U RI A E
I N
S U P P O R T
O F
P E T I T I O N E R i n 2 1 -1 8 4 , K e vi n Bi r d v. R a y L a m b ,
w e r e s e nt vi a F e d e r al E x p r e s s O v e r ni g ht S e r vi c e t o
t h e U. S. S u p r e m e C o u rt, a n d 3 c o pi e s w e r e s e nt vi a
F e d e r al E x p r e s s O v e r ni g ht S e r vi c e a n d e -m ail t o t h e
f oll o wi n g p a rti e s li st e d b el o w, t hi s 4t h d a y of
S e pt e m b e r, 2 0 2 1 :
A n n a Al e k s a n d r o v n a Bi d w ell
C o u n s el of R e c o r d f o r P etiti o n e r
I n stit ut e f o r J u sti c e

9 0 1 N. Gl e b e R d.
S uit e 9 0 0
A rli n gt o n, V A 2 2 2 0 3
a bi d w ell @ij. o r g
Ra y La mb
R e s p o n d e nt
1 0 5 7 6 F all o w L a n e
C o n r o e, T X 7 7 3 0 3
g g 2 4 p a r k n w 1 1 7 s p @ y a h o o. c o m
R e s p e ctf ull y s u b mitt e d ,
S e pt e m b e r 4 , 2 0 2 1
_________________________________

S

E ISE NBER G
C o u n s el of R e c o r d
S ulli v a n & T ri g g s, L L P
1 2 3 0 M o nt a n a A v e n u e,
S uit e 2 0 1
S a nt a M o ni c a, C A 9 0 4 0 3
( 3 1 0) 4 5 1-8 3 0 0
H EL D O N

s ei s e n b e r g @ s ulli v a nt ri g g s. c o m

C o u n s el f o r A

MI C U S

C u ri a e

